No. 19-439
CTIA – The Wireless Association v. City of Berkeley et al.,
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Amicus Curiae
Brief of Pacific Legal Foundation contains 4,552 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 29, 2019.

DEBORAH J. LAFETRA
Counsel of Record
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
E-mail: DLaFetra@pacificlegal.org
Counsel for Amicus Curiae of
Pacific Legal Foundation

